No. _ __

Ralph Abekassis,
Petitioner,

v.
New York City, New York, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Anthony G. Lantagne, hereby certify that the above referenced Petition for Writ of
Certiorari, as indicated by the word count feature of MS Word, and including footnotes
but excluding those parts enumerated for exclusion under the rules, contains 7,766
words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 23rd day of August, 2021.

Lantagne Legal Printing, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 23rd day of August, 2021, and attested
that the foregoing certificate is true and exact to the best of his knowledge and belief.

Richard Markell

